C'OCKLE

2311 Douglas Street CA ‘ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B b wi fs contact@cocklelegalbriefs.com
“1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
2

Fax: (402) 342-4850
No. 20-1461

JAIRO ACOSTA,
Police Officer for the City of Los Banos,
Petitioner,
Ve
TAN LAM,
as Successor-in-Interest to Decedent Sonny Lam
(aka Son Tung Lam),
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in

the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 8810 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of August, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

fi GENERAL MOTARY-State of Nebraska &v 2 Z i,
& RENEE J. GOSS 9. ‘“

Affiant

 

 

mame My Com. Exp. September 5, 2023

Notary Public 41213
